sume (LOCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B cad © fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-304

WORLD PROGRAMMING LIMITED,
Petitioner,
v.
SAS INSTITUTE INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8982 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 8th day of December, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

fe cts, | NOTARY-State of Nebraska & 2. 4 d,
RENEE J, GOSS Qu draw i

fe cts, | Exp. September 5, 2023
Notary Public Affiant

 

40400
